                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113080051                                                                        Page 1 of 1



         This case was opened from two nearly identical allegations from two complainants. 1 The
         complainants are former NSF employees who alleged that their supervisor2 and the Office Head3
         engaged in discriminatory hiring practices, ineffective management techniques, creation of a
         hostile work environment, wasteful spending, and use of a fraudulent title during their time at
         NSF. In addition, one of the complainants4 claimed that he was marginalized and ultimately
         terminated after his probationary period as a form of retaliation for having disclosed quality
         control issues to NSF's Acting Director.

         The retaliation claim was also made to the Office of Special Counsel (OS C), which determined
         that the complainant's termination was not a violation of the Whistle blower Protection Act, 5
         U.S.C. § 2302(b)(8) because the disclosures did not rise to the level of"gross mismanagement,"
         a "gross waste of funds," or an "abuse of authority," and therefore did not meet the definition of
         a "protected disclosure."

         It is our determination that the allegations in the two complaints are management issues that do
         not fall within our investigative jurisdiction. The allegations have been referred to the Director's
         Office for review and action as it deems appropriate.


         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
